<html>
<title> - RENEGOTIATING THE SOUTH PACIFIC TUNA TREATY: CLOSING LOOPHOLES AND PROTECTING U.S. INTERESTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                  RENEGOTIATING THE SOUTH PACIFIC TUNA
                     TREATY: CLOSING LOOPHOLES AND
                       PROTECTING U.S. INTERESTS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2010

                               __________

                           Serial No. 111-133

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
58-429PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. William Gibbons-Fly, Director, Office of Marine Conservation, 
  Bureau of Oceans and International Environment and Scientific 
  Affairs, U.S. Department of State..............................     2
Mr. Russell Smith, III, Deputy Assistant Secretary for 
  International Fisheries, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. William Gibbons-Fly: Prepared statement......................     5
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........    16
Mr. Russell Smith, III: Prepared statement.......................    20

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    60

 
  RENEGOTIATING THE SOUTH PACIFIC TUNA TREATY: CLOSING LOOPHOLES AND 
                       PROTECTING U.S. INTERESTS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 22, 2010

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:40 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. The hearing will come to order. This is 
the hearing of the Committee on Foreign Affairs, specifically 
the Subcommittee on Asia, the Pacific and the Global 
Environment. The topic for discussion this afternoon is 
Renegotiating the South Pacific Tuna Treaty: Closing Loopholes 
and Protecting U.S. Interests.
    I am very, very pleased and honored to have two gentlemen 
who, in my humble opinion, are very much familiar with the 
issue that we are going to be discussing this afternoon, and I 
do want to recognize them before they give their testimony. My 
good friend, the ranking member, unfortunately, is tied up with 
other hearings and commitments. So we are going to go ahead and 
push on.
    Our first witness that we have this afternoon is Mr. 
William Gibbons-Fly, the Director of the Office of Marine 
Conservation, in the Bureau of Oceans and International 
Environment and Scientific Affairs at the Department of State. 
Mr. Gibbons-Fly has 25 years of direct involvement in the 
development, negotiation, and implementation of international 
environmental and oceans policy. His previous positions 
included 4 years as Deputy Counsel for Environment, Science and 
Technology at the U.S. Embassy in Mexico City; 5 years dealing 
with issues at the U.S. National Oceanic and Atmospheric 
Administration, where he coordinated all NOAA participation in 
a wide range of international scientific, technical and 
organizational agreements.
    Over the past 20 years, Mr. Gibbons-Fly has been at the 
forefront of discussions and negotiations for international 
fisheries management in the Pacific Ocean. He previously served 
as a U.S. Commissioner of the Western and Central Pacific 
Fisheries Commission; past chairman of the Inter-American 
Tropical Tuna Commission, or IATTC; and representative of the 
State Department at the Western Pacific Regional Fishery 
Management Council. He is currently leading the U.S. 
negotiating effort to extend the Multilateral Treaty on 
Fisheries between the governments of certain Pacific Island 
States and the Government of the United States, commonly known 
as the South Pacific Tuna Treaty.
    Mr. Gibbons-Fly holds a master's of international affairs 
from George Washington University and a bachelor's degree with 
honors from the University of California in Santa Barbara. He 
is a career executive with the Senior Foreign Service. He is 
the recipient of numerous honors and awards. And I am very, 
very happy to have him join us at this hearing.
    Also with us this afternoon is Mr. Smith, who was formerly 
with the Office of U.S. Trade Representative, USTR, where he 
was the Director for International Environmental Policy and 
Multilateral Environmental Agreements some 4 years ago. He 
joined the USTR in 2002 as Deputy Director of the Office of the 
Americas. Prior to that he had many years of experience at the 
Department of Justice and in private practice. He has led 
various U.S. delegations in negotiating international 
negotiations, including, for example, the U.S.-China Bilateral 
Agreement on Combating Illegal Logging and the environmental 
chapter of the Free Trade Agreement between the U.S. and the 
Republic of Korea. His particular talent is to develop creative 
strategies for making U.S. trade and environmental policies 
mutually supportive and to work with U.S. trade partners.
    Mr. Smith holds a bachelor's degree from Yale University 
and also a juris doctorate from the University of Michigan.
    Gentlemen, welcome to the hearing. And I would like at this 
time for Mr. Gibbons-Fly to start our hearing. And, without 
objection, both of your statements will be made a part of the 
record, and any other extraneous materials that you wish to be 
added will be made a part of the record as well. You are more 
than welcome.
    Mr. Gibbons-Fly.

   STATEMENT OF MR. WILLIAM GIBBONS-FLY, DIRECTOR, OFFICE OF 
    MARINE CONSERVATION, BUREAU OF OCEANS AND INTERNATIONAL 
  ENVIRONMENT AND SCIENTIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Gibbons-Fly. Thank you, Mr. Chairman. And it is a great 
pleasure to be here to see you again to testify before this 
committee and to have the opportunity to update you on the 
status of our ongoing efforts to extend the South Pacific Tuna 
Treaty, along with some related issues.
    Before I begin, let me say, I am very pleased to be joined 
by Mr. Smith this afternoon from NOAA. The Department of State 
works closely with a number of NOAA offices in the 
implementation of the treaty. In particular, the NOAA 
fisheries' Pacific Islands regional office in Honolulu and its 
field station in your district, Mr. Chairman, in Pango Pango 
work closely with us, and they manage the day-to-day 
implementation of the treaty. And the implementation of this 
treaty would simply not be possible without support that we get 
from NOAA on an ongoing basis, and we very much appreciate 
that. Nor would the implementation of the treaty be possible 
without the support and participation of the American Tuna Boat 
Association and the U.S. vessel owners and operators that 
comprise the U.S. tuna purse seine fleet. So I want to 
recognize them at the outset.
    Since my last testimony, Mr. Chairman, we have had two 
negotiating sessions with the Pacific Island parties. October 
of last year in Honiara, Solomon Islands, and in July of this 
year in Honolulu. Our annual treaty consultations, which took 
place on the island of Niue in March of this year, also 
provided an opportunity to exchange views on issues related to 
the treaty negotiations.
    Even so, Mr. Chairman, I need to report to you that the 
status of these negotiations is much the same as it was when I 
last testified before you in April 2009. The negotiations are 
complicated by a number of issues which I will touch on, and 
the outcome of those negotiations at this time remains 
uncertain.
    To begin, Mr. Chairman, there is still a question as to 
whether the Pacific Island States continue to attach the same 
value to the treaty as they have in the past. Right now the 
industry licensing fees paid under the treaty and the 
associated U.S. Government economic assistance provide 
approximately $25 million a year to the Pacific Island parties. 
There is a sense among the Pacific Island parties that this 
figure is too low, given the value of the resources and the 
increasing level of fees and assistance provided by other 
states with fleets operating in the region.
    It is important to the United States that the Pacific 
Island parties get fair value for these resources. Throughout 
its history the treaty has provided a higher economic return to 
the Pacific Island States than any other agreement in the 
region. We expect this to continue to be the case, should the 
treaty be extended. If the Pacific Island States believe the 
current level of compensation under the treaty is not 
sufficient, we have requested that they provide us with their 
estimate of today's value of the treaty, should it be extended 
at something close to the current terms and conditions. But to 
date, Mr. Chairman, we have received no such proposal from 
their side, but we are hopeful that something might be 
forthcoming.
    Another key issue, Mr. Chairman, is the extent to which 
under an extended treaty the U.S. fleet would operate under the 
Vessel Day Scheme developed by the parties to the Nauru 
Agreement. We have sought to make clear that the United States 
is not opposed to considering the application of the Vessel Day 
Scheme to the U.S. fleet, but before proceeding, we need a 
better explanation of the scheme than we have received to date.
    For example, we have asked for an up-to-date document that 
reflects the rules of the Vessel Day Scheme as it is currently 
being implemented. There is no document that can currently be 
shared with us; nothing, in fact, in writing to tell us what 
the rules of this program are at the present time. We have 
asked if any of the PNA member countries have published 
regulations or guidelines describing how the scheme is being 
implemented in their own countries. And again, the answer is 
``no.'' We are told that all PNA members are implementing the 
Vessel Day Scheme through their bilateral agreements; but these 
agreements are not available, so there is no way to confirm 
this. The only bilateral agreement that, to our knowledge, is 
in the public domain is the agreement between the European 
community and the Solomon Islands. That agreement, Mr. 
Chairman, contains no reference to the Vessel Day Scheme or to 
any related concept. Further discussions with representatives 
in other countries have confirmed that there is no uniform or 
consistent application of the Vessel Day Scheme across 
countries and fleets.
    So as you can imagine, Mr. Chairman, it is almost 
impossible for us to negotiate under these circumstances when 
we don't know what we are being asked to agree to. If the PNA 
and the FFA more broadly are interested in working 
cooperatively with the United States to develop a workable, 
well-defined and transparent Vessel Day Scheme to be applied to 
all fleets seeking access to fish in the region, we have been 
and continue to be open to those discussions. But, Mr. 
Chairman, those discussions would require a somewhat different 
approach on the part of the PNA members than we have seen to 
date.
    A third key issue, Mr. Chairman, is the aspirations of 
these small island developing states to gain benefits from the 
fishery resources under their jurisdiction and the industries 
that they support. This is an issue to which the United States 
attaches significant importance, and we will be seeking to 
learn more about the specific proposals from the FFA members on 
these matters as our discussions continue.
    My written testimony, Mr. Chairman, notes some additional 
issues that I will not mention here in the interest of time, 
but they are reflected in the written testimony.
    With the remainder of my time, I would like to take just a 
minute to discuss the very critical issue of conservation of 
tuna resources in the Pacific and how the treaty relates to 
those efforts.
    Mr. Chairman, as you well know, there are very strong 
indications that the level of fishing efforts on some species 
of tunas in the western and central Pacific exceeds levels that 
are sustainable in the long term. This is particularly true for 
bigeye tuna and, to a lesser extent, yellowfin tuna as well. If 
we are to address the issues of long-term conservation and 
sustainability of the region's fish stocks, we must find a way 
to limit and eventually reduce the number of vessels operating 
in the region.
    Our longstanding position has been that when the coastal 
states and the fishing states of the region are prepared to 
enter into serious negotiations to achieve a real reduction in 
the level of the fishing effort in the region, the United 
States will not only participate in that effort, but will work 
actively to bring such negotiations to a successful conclusion. 
In doing so we have made clear that we will be prepared to 
accept a fair and equitable share of any reduction in fishing 
effort, including by the U.S. tuna purse seine fleet.
    And yet, Mr. Chairman, this is not what we see happening. 
The number of purse seine vessels continues to increase each 
year, seemingly without limit. We understand there are plans to 
bring up to an additional 40 vessels into the fishery in the 
next 3 to 4 years, and as a result, we see little to be gained 
if any reductions that would accrue as part of the U.S. fleet 
would simply be offset or more than offset by this continuing 
increase in the level of our efforts, especially when many of 
those vessels coming into the fishery would be from states with 
no previous history of fishing in the region, no record of 
compliance with agreed measures, and no history of cooperation 
to conserve and manage the region's fisheries resources.
    So in very short terms, Mr. Chairman, those are some of the 
challenges we face. I will stop there in the interest of time. 
I would be happy to respond to any questions you may have. 
Thank you.
    [The prepared statement of Mr. Gibbons-Fly follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. My sincere apologies. I kind of jumped 
the gun on the hearing this afternoon. I have not even offered 
my opening statement. But be that as it may, I would like to 
give my opening statement now, after Mr. Gibbons-Fly had 
already given his statement. But this may be beneficial to Mr. 
Smith. You might want to make some added notes about some of 
the concerns I raised concerning the tuna treaty.
    This is the third in a series of hearings the subcommittee 
has held on the fisheries agreements of U.S. interests in Asia 
and the Pacific, the two previous having been held in July 2007 
and April 2009. The purpose of this hearing is to determine the 
Obama administration's views on the status of negotiations over 
the extension of the current South Pacific Tuna Treaty which 
expires on June 14, 2013, and on such issues as revenue 
sharing, conservation, linkages between the treaty and the 
Western and Central Pacific Fisheries Convention, the Nauru 
Agreement, and impacts on U.S. interests.
    Of particular concern is the practice of transshipment of 
tuna caught under the auspices of the South Pacific Tuna 
Treaty. Under the terms of the treaty, the U.S. Government pays 
out about $18 million of the $25 million total that is given to 
the island nations. This amount is given to the Pacific Island 
parties in return for the right of our U.S. tuna boats, limited 
to about 40 licenses, to fish in the Exclusive Economic Zone of 
the 16 Pacific Island nations which are party to the treaty.
    The U.S. tuna boats also pay the Pacific Island parties 
about $3 million to $5 million or more per year, depending on 
the amount of tuna caught. According to the Congressional 
Research Service, the U.S. tuna boats harvest about $250 
million worth of tuna annually. But the value of the tuna as it 
moves through the processing and distribution chain may be as 
much as $500 million or more.
    Of the approximately 300,000 metric tons of tuna that is 
caught by the U.S. tuna fishing fleet, more than 180,000 metric 
tons is transshipped and outsourced to foreign nations such as 
Thailand, which has become the world's largest canned tuna 
producer and processes a large percentage of tuna caught in the 
Pacific region. This practice of outsourcing U.S.-caught 
resources has led to an offshoring of American jobs. Thailand's 
fish cleaners, who are paid 75 cents or less per hour, directly 
compete against the workers in the United States who are paid 
in accordance with Federal minimum wage laws. And I am making 
reference specifically to my own district. American Samoa's 
economy, which is more than 80 percent dependent either 
directly or indirectly on the U.S. tuna fishing and processing 
industries, has been adversely affected with more than 2,000 
workers now displaced. Puerto Rico and California have also 
suffered job losses as Thailand's private-label business 
currently accounts for almost 30 percent of the market for tuna 
consumed in the United States. This subcommittee is interested 
in the administration's views about how we can close these 
loopholes and more fully protect U.S. interests.
    The subcommittee is also concerned about the environmental 
impact of overfishing. According to the Congressional Research 
Service, the western Pacific is, and I quote, ``home to half of 
the world's tuna stocks and some of the few remaining 
sustainable fishing areas in the world.'' But in the time it 
takes for the older U.S.-built tuna boats to make three direct 
deliveries to a U.S. port, like American Samoa, the newest 
boats in the U.S. fishing fleet, which are foreign built and 
account for more than half of the available licenses, can make 
five transshipment deliveries. They offload their catch to a 
big mother ship, a reefer, making it possible for these boats 
to return more quickly to the South Pacific Tuna Treaty fishing 
grounds where they can catch more and more tuna at a more and 
more maddening pace.
    And this is only the story of the U.S. tuna fishing fleet. 
Asian countries account for an estimated 80 percent of tuna 
caught in the Pacific, according to Greenpeace, which means we 
must get serious about making modifications to the South 
Pacific Tuna Treaty to seriously address the issue of 
overfishing and outsourcing.
    I am pleased that in 2007, 3 years ago, modifications were 
made to allow U.S. longline vessels, along with purse seine and 
albacore troll vessels, to fish in the treaty area. And I am 
hopeful that other concerns I have also raised will be 
addressed.
    The South Pacific Tuna Treaty, which has been in place 
since 1988, was renewed in 1993 and again in 2003. The regional 
fishing tuna treaty--and I just want to comment--came as a 
result. The problems that we have had when our American tuna 
boat owners held the belief that since tuna is a highly 
migratory fish, they can fish anywhere they want regardless of 
the Exclusive Economic Zones that these countries claim, 
especially in Latin America. And what happened was that when 
these fellows went over there, their ships ended up getting 
confiscated, and eventually they decided to leave the coastline 
in the Americas and come to the western Pacific to fish. And 
here again, with that philosophical outlook, because tuna is a 
highly migratory fish, they continued doing this fishing 
anywhere they wanted because they felt that tuna is a migratory 
fish, and therefore there are no boundaries extending in terms 
of their limitations on how they can fish.
    Well, one of our purse seiners ended up being confiscated 
by the Solomon Islands Government, and that created an 
international uproar. This resulted in Secretary of State 
Shultz and Mr. Negroponte, also with the State Department, 
negotiating and establishing this regional fishing treaty 
allowing our tuna purse seiners to fish these island countries 
in their Exclusive Economic Zones. And I just wanted to share 
that with Mr. Smith and Mr. Gibbons-Fly about how this treaty 
came about.
    The treaty has served to reduce tensions between the U.S. 
and Pacific Island nations, which, prior to the agreement, 
regarded U.S. purse seiners' vessels as operating illegally. 
But new concerns have arisen, and Pacific Island nations 
rightfully want their fair share of the profits, too.
    His Excellency, President Johnson Toribiong, the President 
of the Republic of Palau, called for a Pacific Islands summit 
recently to develop an OPEC-type organization of cartels to 
control the tuna industry, which generates about $4 billion 
annually. I support the efforts of the parties to the Nauru 
Agreement because for too long, Pacific Island countries, 
including my own little district, have not received a fair 
share of these revenues. Instead, our resources are being 
siphoned off by Thailand and other countries that are making 
billions of dollars at our expense.
    I believe if we will pull together, we might be able to 
level the playing field for all Pacific Islanders as well as 
for our U.S. tuna fishing fleet and processing industries. But 
any forthcoming agreement or treaty will need to make certain 
that the same monitoring and control and surveillance 
requirements imposed upon U.S. vessels are also applied to 
major fleets that are non-U.S.-owned.
    So with that opening statement for both of you gentlemen, 
at this time, I would like to ask Mr. Smith for his statement.
    [The prepared statement of Mr. Faleomavaega follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
STATEMENT OF MR. RUSSELL SMITH, III, DEPUTY ASSISTANT SECRETARY 
 FOR INTERNATIONAL FISHERIES, NATIONAL OCEANIC AND ATMOSPHERIC 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Smith. Thank you, Mr. Chair Faleomavaega and members of 
the subcommittee. Thank you for that warm welcome and for 
inviting me to testify here today on the South Pacific Tuna 
Treaty, the U.S. interests and the changing nature of this 
fishery.
    As you know, NOAA shares responsibility for implementing 
the South Pacific Tuna Treaty with the Department of State. 
U.S. involvement in the purse seine fishery under the treaty 
has fluctuated since it went into force in 1988. The number of 
licensed U.S. Vessels operating in the treaty area reached a 
high of 49 in 1994 and generally declined over the next decade. 
The declining price of raw tuna product and significant 
increases in fuel and insurance costs affected the 
profitability of the purse seine fishing, and by 2007, only 11 
U.S. vessels were licensed under the treaty.
    Following the addition of new Taiwanese-built purse seine 
vessels to the U.S. fleet, passage of legislation to allow 
employment of internationally licensed officers on these 
vessels, and a shift away from American Samoa-based operations, 
the U.S. fleet began to rebound. Currently there are 36 U.S. 
purse seine vessels licensed under the treaty. As the U.S. 
purse seine fishery first developed in the western central 
Pacific back in the late 1970s, many operators delivered to the 
two canneries in your district and used Pango Pango as a base 
of operation. Those vessels would take four to six trips a 
year, spending roughly 200 days per year at sea fishing, and 
the remainder in port unloading or maintaining their vessels 
and gear.
    While it is unclear why so many vessel owners left the 
fishery in the 1990s and in the early 2000s, some have 
attributed the position to a general lack of profitability, 
given the large capital investment and risks associated with 
the operation of purse seine vessels.
    In 2007, a component of the industry developed an 
alternative business model after building new vessels that were 
equipped to efficiently transship fish, a model that you have 
referenced, Mr. Chair. This alternative business model 
attracted about 20 vessels to join the U.S. fleet in 2007 and 
2008, with some of the new vessels initially basing their 
operations in Pango Pango. However, the closure of one cannery 
has caused at least a few of these vessels to turn to 
transship, given the reduced demand for tuna in Pango Pango.
    The U.S. territories in the Pacific have seen direct 
economic benefits at one time or another as a result of the 
treaty. Vessels continue to supply tuna to the remaining 
cannery in American Samoa, and the territory enjoys other 
benefits associated with vessel support, such as provisioning 
and crewing, albeit at a reduced level from the past.
    The treaty has mitigated some of the economic uncertainty 
for U.S. participants in the purse seine fishery by providing a 
stable operating environment, but it seems that changes in the 
business model have been driven by the need to be competitive 
in the face of foreign competition. Preliminary figures for 
2009 show that the western and central Pacific Ocean fishing 
area, approximately 250 large purse seine vessels from several 
nations landed a record 1.9 million metric tons of 
predominantly skipjack tuna. Of this amount, the U.S. purse 
seine fleet landed about 260,000 metric tons, or roughly 14 
percent of the WCPO purse seine total, worth approximately $300 
million. The U.S. purse seine fleet operating under the treaty 
is the greatest revenue-producing U.S. fishing fleet operating 
outside of U.S. waters.
    Skipjack tuna is the predominant target species in the U.S. 
Purse seine fishery in the WCPO followed by yellowfin. Bigeye 
tuna, although not a target species in the purse seine fishery, 
is caught mostly as juveniles in quantities equal to the 
region's longline fishery, an issue of great concern to NOAA, 
given that bigeye is currently subject to overfishing.
    NOAA has a number of administrative and operational roles 
with respect to the treaty as well as enforcement 
responsibilities. NOAA provides technical and fisheries policy 
support to the Department of State during treaty negotiations 
and issues the domestic regulations necessary to carry out the 
terms of the treaty and the objectives of the South Pacific 
Tuna Act of 1988. These regulations include requirements 
related to vessel licensing, reporting on fishing activities, 
carrying vessel observers and operating satellite-based vessel-
monitoring systems.
    NOAA staff from Pango Pango provide essential tuna stock 
assessment and vessel-monitoring data to the Pacific Islands 
Forum Fisheries Agency as the treaty administrator for the 
Pacific Island parties.
    U.S. negotiating positions developed for the treaty are 
consistent with and support NOAA's position in the Western and 
Central Pacific Fisheries Commission, the regional fisheries 
management authority that sets the tuna targets for the purse 
seine and longline fisheries industries in this region, 
including the vessels from other countries. As both a coastal 
state with a significant amount of EEZ waters and a major 
fishing state primarily due to our purse seine fleet, NOAA has 
been able to achieve strong measures for conservation as well 
as successfully preserve fair and equitable access for U.S. 
fishing activities.
    The Commission has implemented a number of conservation and 
management measures for purse seine vessels that NOAA has 
implemented domestically, such as restrictions on the use of 
fish aggregation devices, or FADS, and other efforts to limit 
bycatch, high seas closures, 100 percent observed coverage, and 
effort limits.
    In summary, NOAA is committed to supporting the renewal of 
the treaty and working within the Commission to ensure the 
long-term health of the WCPO tuna stocks to maintain a 
beneficial economic return on the U.S. investment. Without 
significant U.S. participation in this fishery, NOAA's ability 
to influence decisionmaking in the Western and Central Pacific 
Fisheries Commission would be diminished.
    Thank you again for the opportunity to address the 
committee. I hope I have touched on some of the issues that are 
of interest, and I would be happy to answer any questions that 
you might have.
    Mr. Faleomavaega. Thank you very much. I appreciate your 
statements. As I said earlier, without objection, your 
statements will be made part of the record.
    [The prepared statement of Mr. Smith follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. I do have a couple of questions that I 
wanted to ask so that we can dialogue on this issue.
    We did extend an invitation to the American Tuna Boat 
Association and its affiliates and someone representing the 
U.S. fishing fleet to come and testify; but unfortunately I 
think they were tied up with the current fisheries conference 
being held in Bangkok. I think that is one of the reasons why 
some of their chief officers were not able to attend. But I 
wanted to ask Mr. Gibbons-Fly, do you know what the official 
position of the Tuna Boat Association is concerning the current 
negotiations that are going on right now over the treaty?
    Mr. Gibbons-Fly. Yes, Mr. Chairman. We work very closely 
with the American Tuna Boat Association, their executive 
director Paul Krampe and many of their members. Because we 
hosted the last session of the negotiations in Honolulu, a 
number of the U.S. vessel owners were able to come and 
participate actively on the U.S. delegation in a way that has 
not been possible when we have held them in more far-flung 
corners of the Pacific.
    I think I can say confidently that the American Tuna Boat 
Association members, the vessel owners and operators share the 
concerns that have been laid out in my testimony, both in the 
oral testimony and the written testimony. I hesitate to speak 
for them, but I feel like I can say a couple of things. I think 
they feel very strongly that they have been very good actors 
over the life of the treaty. They have set the standard for 
compliance. They have taken on responsibilities, such as 
vessel-monitoring systems, observer programs, and other things 
that then allowed--because the U.S. fleet set the example--then 
allowed the Pacific Island States to hold other foreign fleets 
to that same standard. So I think it comes as some surprise to 
them, as it does to us, that we now see this shift in the 
position of some of the island states that really has tended to 
be somewhat critical, highly critical in some cases, of the 
operations of the U.S. fleet and the U.S. Government in the way 
that the treaty has been implemented.
    We are surprised by that, and we think that--you know, I am 
hoping that it is largely part of any ongoing negotiation that 
we will be able to work through. Obviously they want to get the 
best deal that they can, and we want to make sure that we 
provide a fair and equitable return in response to--in return 
for the access that our vessels are afforded.
    Thank you, Mr. Chairman.
    Mr. Faleomavaega. You mentioned that it is difficult right 
now for the administration to determine what will be considered 
a reasonable price tag on the funding that the U.S. Government 
will provide to implement or enforce a new treaty with these 
island nations. As you mentioned in your statement, the island 
countries are saying the current funding is not enough. And you 
rightly pointed out that it was difficult for your office to 
determine what is considered the right amount when they have 
not been forthcoming in giving you the specific data and 
information that really is giving us a better sense of value.
    Has there been any information from the office in terms of 
these bilateral agreements that these island countries made 
with other countries? For example, I think Spain currently has 
about 14 purse seiners operating in the waters off the Republic 
of Kiribati. Do you know how much Kiribati is currently getting 
as a result of allowing some 14 Spanish purse seiners to fish 
in their fishing grounds?
    Mr. Gibbons-Fly. No, Mr. Chairman. We do not have that 
information as to what the level of return is. The Asian 
Development Bank reports cumulative totals in terms of what 
their return on access fees are to various Pacific Island 
States and what percentage that constitutes in terms of the 
value of the resource or the overall percentage of each 
country's budget.
    I am confident in saying that over the life of the treaty, 
and even today currently, that the treaty--the cumulative total 
of the licensing fees paid by the industry and the economic 
assistance provided by the government represent a higher rate 
of return on the value of the resource than any of these 
agreements in the region. At least to this date, no one has 
been able to contradict us when we made that statement. So 
until someone does, we are confident that that continues to be 
the case.
    That said, Mr. Chairman, if you will allow me, we have not 
been able to come up with an exact figure; but we have been 
able to--we have sought to convey to the Pacific Island States 
that each time this treaty has been negotiated, the level of 
overall return to them, both through the license fees and from 
the U.S. Government assistance package, has increased. And this 
is now our third effort to renegotiate this extension, so we 
have every expectation, and it would certainly be reasonable to 
expect, that they would come to us and make a proposal for some 
higher level of compensation. But it is up to them to determine 
what level of compensation they determine to be appropriate. 
And then once we have that figure, we can begin the 
negotiations; and more importantly, we can begin to seek 
whatever budget authority we would need to be able to determine 
whether or not we could agree to that figure or not. Thank you.
    Mr. Faleomavaega. It is my understanding that the total 
cumulative value of the entire tuna industry, processing, 
fishing and everything related to the tuna industry, is 
somewhere around $4 billion. And I am curious, just catching 
the fish alone--catching the tuna alone in the Pacific, I am 
also informed that it is valued well over $1 billion in terms 
of how much is being caught in the western and central Pacific 
Ocean.
    And I am just curious, $25 million in payments, and the 
value is some $500 million worth of tuna that our fishing boats 
catch. I am not a mathematician, but I am just figuring that 
$25 million is a pittance compared to the value of how much 
tuna that our tuna boats harvest in the Pacific waters. And if 
you go to the processing plant, the value comes to about $500 
million. So would you say that there is some concern, rightly 
so, the fact that $25 million out of $500 million worth of tuna 
caught by our own fishing boats is a little low? Can you 
comment on that?
    Mr. Gibbons-Fly. Yes. Well, only to repeat that if it is 
the view of the Pacific Island States that the level of 
compensation is not sufficient, we would hope that they would 
come to us with a proposal as to what they think an appropriate 
level of fees are. The treaty, as I said, has always provided--
the U.S. Government values the treaty as more than just an 
access arrangement. They are of significant value to us in 
having this relationship with the FFA and the Pacific Island 
States as a whole. And so in terms of the economic assistance 
that is provided, there has always been a premium built in to 
reflect the value of the treaty to the United States above and 
beyond anything that might be expected as a payment for 
straight access fees, which are covered by the industry 
payment.
    We would like to see that relationship continue, but I 
can't name a figure for two reasons. One, I don't want to be in 
the position of negotiating against ourselves. And two, I have 
no budget authority to be able to say we can provide anything 
more than the amount we are currently providing. But if there 
is a proposal on the table from the other side, then that gives 
me the possibility to go back through our budget process and 
say, here is what we are being requested, and try to get 
authority within my department to agree to that number.
    I can't make any guarantees until I go up--I certainly 
don't have the decisionmaking authority on multimillion-dollar 
decisions, but certainly I think there is a strong argument 
that can be made, such as you have articulated, Mr. Chairman, 
that the United States might look for some additional funds to 
raise. I mean, it has been 10 years since we negotiated the 
treaty. So even in terms of just an inflation adjustment, one 
might expect there could be some increase over what was 
provided in 2000 and 2003.
    Mr. Faleomavaega. Please, Mr. Smith, jump in if you think 
you might want to add some more points on this on behalf of 
NOAA.
    Mr. Smith. No. I agree with my colleague from State. I 
think he has articulated this very well. Thank you.
    Mr. Faleomavaega. I was recently in Vanuatu attending the 
Pacific Island Forum's conference, and in talking to some of 
the leaders of the Pacific Island countries, another issue that 
I want to raise with you, Mr. Gibbons-Fly, is--you may want to 
talk to your principals about this. One of the things the 
island nations are complaining about is the fact that this fish 
has been caught in their waters, being transshipped to a major 
port like Thailand. And what they are saying is, why don't you 
transship it to the island ports so that the benefit will 
continue to be part of the economic needs of the Pacific Island 
nations, rather than giving it to the world's largest tuna-
processing country, mainly Thailand? And I said, ``Well, why 
not transship it to my port, too, for that matter?''
    But this was a very serious issue. They say, hey, these 
300,000 metric tons harvested by American ships, they just ship 
it to Thailand. Why don't they ship it to some of the island 
countries for transshipment and even for processing?
    So I just wanted to raise that issue as maybe another thing 
that you may want to look at in your negotiations with the 
island countries.
    Are both the Forum Fisheries Agency and the Nauru Agreement 
countries, the PNA group, are they working together in this 
negotiation? Or is it just primarily the FFA representatives 
representing the island nations in this negotiation?
    Mr. Gibbons-Fly. Yes. Well, I don't mean to monopolize all 
of the time, Mr. Chairman, so I will make some comments, and 
Mr. Smith should feel free to jump in whenever he feels it is 
appropriate.
    Our treaty is with the FFA members. All 16 members of the 
Forum Fisheries Agency are party to the treaty, and our primary 
negotiating forum is with the FFA members. Having said that, 
the PNA has been within the FFA emerging as a more independent 
voice, and their interests are very much front and center in 
this negotiation. And so apart from the discussions that we 
have had with the FFA as a whole, we have also had informal 
discussions with the PNA members individually and collectively 
to try to get a sense of their interests and the manner in 
which they would like to see these negotiations proceed. And 
those negotiations, those discussions have centered to this 
point on the Vessel Day Scheme.
    And it comes back to the point that I made in both my oral 
testimony and in which is explained in more detail--excuse me, 
in my written statement--that they very much want the U.S. to 
participate under the Vessel Day Scheme. But our concern is 
that we have not been able to receive one--as of today, there 
is no single piece of paper anywhere that can tell us what the 
rules of that program are. And, you know, we are talking about 
negotiating a legally binding agreement, and once we get done 
with that agreement, our colleagues in NOAA are going to need 
to write some very strict regulations to ensure that when U.S. 
vessels don't follow the rules, they can be hit with sanctions 
and penalties. But NOAA can't write those regulations and 
decide what rules are going to apply to U.S. vessels if we 
don't know what those rules are.
    And at the same time, if I am going to be asked to go back 
into my Department and justify an increase in the level of 
economic support funding for the economic assistance associated 
with the treaty, I need to be able to explain in pretty 
considerable detail what it is we have agreed to. And I can't 
do that right now because we just don't know what we are being 
asked to sign on to. So until we get some clarity in these 
issues, it is very difficult to make progress in these 
negotiations, Mr. Chairman.
    Mr. Faleomavaega. Mr. Smith?
    The Vessel Day Scheme, as you had indicated earlier, Mr. 
Gibbons-Fly is that you come and fish in the Exclusive Economic 
Zone of any country that is a member of the treaty. Whatever 
number of days you spend in that EEZ zone, regardless of how 
much you catch, you will pay kind of like a standard fee. So in 
other words, even if I spend 10 days in that EEZ zone, if I 
don't catch anything, I still have to pay. Is that basically 
the problem that we have with the Vessel Day Scheme they are 
advocating on this issue?
    Mr. Gibbons-Fly. Well, the answer is we don't know because 
we don't know what the rules of the program are. The way it is 
supposed to work is that a country or a fleet is assigned a 
specific number of days. So let us say, you know, a fleet gets 
3,000 days. Then there has to be a way of counting which of 
those days--when vessels are at sea, which of those days count 
against that total. And so there are what are called fishing 
days. All the fishing days are then subtracted against the 
total, except when they are determined to be nonfishing days. 
So if a vessel is at sea and meets certain requirements, then 
it counts as a fishing day. But if it meets the requirements 
for that to be a nonfishing day, then that is not counted 
against the total.
    But we have asked for a definition of a fishing day. We 
have asked for a definition of a nonfishing day, so that we 
will know how to count against whatever total is assigned. 
There is no definition that can be provided to either of these 
terms, Mr. Chairman, which just complicates the things even 
further. Thank you.
    Mr. Faleomavaega. I want to ask you, Mr. Smith, I guess, in 
the process of monitoring and collecting data--I think that is 
where NOAA comes into the picture. Does our Government provide 
any service to these island nations through our--and I don't 
even know if I am saying this correctly--GPS system? Do we help 
in tracking some of the poachers that come into the EEZ zones 
of some of these island nations and catch them so they are 
fined extensively? Is our Government providing some kind of 
service to these island nations about tracking poachers or 
ships that are illegally fishing on these grounds, their 
grounds?
    Mr. Smith. Well, I know our Government provides services in 
terms of tracking our own vessels both in terms of locations of 
vessels, and when they are fishing, and ensuring that reports 
on levels of activity and levels of catch are being transmitted 
to the FFA, and that the information that is being transmitted 
is correct.
    On the question of providing assistance with respect to 
combating illegal, unreported, and unregulated fishing in 
general, I know that we do do some work with them, but I am not 
sure of the nature, and I would be happy to provide you with 
some additional information perhaps as a supplement.
    Mr. Faleomavaega. Yes, I would very much appreciate that, 
if you could give me exactly what the current status of our 
monitoring system is to help these island countries.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. If I could just, a little bit more on this and 
on a related point. As you know, our Government is very 
concerned about protecting, among other things, the health of 
the fisheries in which we are fishing. In this particular area, 
one of the ways we do this is through our work in the Western 
and Central Pacific Fisheries Commission, which covers much of 
the same area as the treaty, but where we come together with 
all of the nations that are fishing in the region, not only the 
parties to the SPTT, but the other countries that are fishing 
in these same waters, in order to set measures that, in part, 
protect the resources.
    Our participation in the SPTT is in part important to us 
because, as a significant fishing nation in this region, it 
gives us a greater voice, a greater voice to not only argue for 
reduced catches and other measures to protect the stock, but 
also to argue for ventures that help combat things like IU, 
illegal, unregulated and unreported fishing. It also gives us a 
vehicle for working with other nations to enforce against those 
sorts of activities and we think in general works to the 
benefit of everybody because it helps to preserve the fish 
stocks.
    Mr. Faleomavaega. Let me rephrase my question. Maybe I am 
not getting through. I am not a member of the Intelligence 
Committee, but I think our satellite system is sophisticated 
enough to know just about every ant and fly that goes under the 
ocean and on the surface of the ocean throughout the entire 
Pacific Ocean, both North and South. And I was just wondering 
whether in the process of getting assistance--because they 
don't have airplanes, they don't have resources to monitor 
illegal fishing in their Exclusive Economic Zone, and I was 
just wondering if the U.S. is giving some kind of assistance in 
that respect.
    I realize that we have security, strategic and military 
interests as well, and this is more than just fishing, but I 
just wanted to know if we can do the same service. I mean, we 
have got satellites over there that can pinpoint just about 
every ant or spider that goes around in the Pacific. And I was 
wondering, as a real help to these island countries that don't 
have airplanes, don't have ships--if they do, it is so bare 
that it is very, very difficult for them to monitor illegal 
fishing, especially from the Taiwanese boats. They are the 
biggest culprits in this poaching that is going on, and I 
imagine the hundreds of millions of dollars' worth of fish that 
has been taken illegally because of this. And I was just 
wondering, that would be such a tremendous help to these island 
nations to culture this resource that is so important to them.
    You know, I always say, the ocean is their farm. They have 
limited land resources for agricultural or commercial 
productions. But they certainly have Exclusive Economic Zones 
in the oceans and perhaps this is maybe something where our 
Government could give assistance.
    Mr. Smith. Thank you, Mr. Chairman. And, yes, I do 
understand your question, and I think that--I need to go back 
and seek further information for you, although I do know that, 
for example, Coast Guard has some programs. And perhaps Mr. 
Gibbons-Fly can provide a little further background on those 
programs.
    Mr. Faleomavaega. Please.
    Mr. Gibbons-Fly. Yes, Mr. Chairman. There is a great deal 
of assistance that the United States Government is providing to 
the island states to help them defend and enforce their EEZs 
against incursions by foreign fishing. The large majority of 
that comes from the U.S. Coast Guard, which regularly patrols 
wide areas of the western and central Pacific and over the last 
few years has negotiated a number of what are called ship rider 
agreements with the Pacific Islands, whereby enforcement 
authorities from the Pacific Island States are able to ride 
along on these Coast Guard cutters when they are in waters 
under the jurisdiction of the coastal states and therefore 
provide a platform. So when they encounter a vessel that is 
fishing illegally, it is not the Coast Guard taking action 
because they don't have jurisdiction in those waters, but the 
enforcement authority from the coastal state then is able to 
exercise his or her enforcement authority over the vessel. And 
there have been a number of cases of vessels found illegally 
fishing, brought into port, that have resulted in fines against 
these vessels and very significant numbers that have accrued to 
some of the Pacific Island States.
    The Coast Guard is currently--and I think there are six or 
seven of these agreements. I don't have all of it, but I think 
the compact states, I believe, Kiribati--the compact states, 
Palau, Marshall Islands, FSM, Kiribati, there are others. And 
the Coast Guard is actually even now looking to expand those 
with other States in the region.
    But I do want to emphasize that it is the treaty that 
provides the foundation, the cooperation under the treaty that 
provides the foundation for that kind of activity by the Coast 
Guard. We have under the treaty an agreed enforcement minute 
that says, we shall cooperate on enforcement across--and the 
Coast Guard has used that as the basis for a lot of this work. 
So the treaty underpins our cooperation, the U.S.-Pacific 
island cooperation, that has been established under the treaty. 
It underpins a lot of that work.
    Mr. Faleomavaega. So you are saying that that is part of 
the treaty agreement process where we give assistance to these 
island countries for the Coast Guard to monitor illegal fishing 
in their grounds. Am I correct in this? Or was that a separate 
issue that is not included in the treaty?
    Mr. Gibbons-Fly. Well, it is not part of the treaty itself, 
but the treaty does establish the foundation for us to 
cooperate on other issues. And in particular there is--as I 
said, there is an agreement enforcement minute. And it is a 
very simple document. It is very possible that the Coast Guard 
could have gone ahead and negotiated these agreements even in 
the absence of that minute. But some of the relationships that 
were built by the Coast Guard representatives with the island 
states were built as a result of their participation on the 
delegations to the treaty consultations and things like that.
    So I wouldn't say that this is part of the treaty. Coast 
Guard is operating under its own authority in conducting these 
agreements and implements and operates them under their own 
authority. But the treaty has certainly provided a lot of--kind 
of the underpinnings under which this relationship was able to 
evolve to get to these broader agreements.
    Mr. Faleomavaega. I realize that this issue is outside the 
parameters of our discussion concerning the regional tuna 
treaty. But it also touches on the fact that it is in reference 
to the same region, and that is the Pacific region composed of 
all these island countries that is part of the Pacific.
    I want to raise the issue that beyond just fishing for 
tuna, one of the things that I have always advocated strongly 
in terms of our Government's involvement where it should be 
involved are the seabed minerals that are contained in the 
Exclusive Economic Zones of these island nations. A couple of 
years ago, I think it was a Norwegian company that did a 
feasibility study on the Cook Islands. The Cook Islands only 
have about 20,000 people, but their Exclusive Economic Zone in 
the ocean is about 3 million square miles. And this company 
estimates that the Cook Islands' seabed has an amount of 
manganese nodules valued well over $200 billion. If there was 
some harvest procedure going on on the bottom seabeds of these 
islands, and that is just the Cook Islands alone. I even 
understand in the Samoan Islands there is cobalt found there.
    So not just fishing, tuna, but on a more long-term vision 
in terms of looking at these island countries, as small as they 
may be, beyond just fishing for tuna. The wealth that these 
island countries possess potentially as far as seabed minerals 
are contained. As you well know, there are nodules that grow 
naturally in the bottom of the ocean which produce manganese, 
nickel, copper. I think two other elements are also there. That 
is why there is tremendous, tremendous wealth or value in the 
seabeds.
    Does our Government have any interest in this area besides 
just tuna, the worth of manganese nodules in the seabeds of 
these island countries throughout the Pacific?
    Mr. Gibbons-Fly. Mr. Chairman, you have ventured outside my 
area of expertise, but if you have a specific question, I would 
be happy to take it for the record and get you a response.
    Mr. Faleomavaega. Can you please? I would be very 
interested to know what the State Department's position is on 
this. I know it is not about tuna. But I said seabed minerals 
are even more valued, more valued than tuna in that respect.
    Mr. Smith, do you think maybe NOAA might have some ships 
going around sensing how many submarines are going through our 
waters there?
    Mr. Smith. Thank you, Mr. Chairman. I am relatively sure 
that we don't.
    Mr. Faleomavaega. You don't have any understanding?
    Mr. Smith. That is not within sort of the work that we are 
doing right now.
    Mr. Faleomavaega. So are you saying perhaps the Department 
of the Navy or the Department of Defense might have that 
information in that regard?
    Mr. Smith. We would be happy to get back to you and provide 
you with some additional information.
    [The information referred to follows:]
  Written Response Received from Mr. Russell Smith, III, to Question 
    Asked During the Hearing by the Honorable Eni F.H. Faleomavaega
    NOAA does not maintain these types of records. We encourage the 
Committee to ask the Department of Defense, specifically the Navy, for 
this information.

    Mr. Faleomavaega. All right. You have both given an 
indication about the question of conservation issues. And this 
has always been one of my pet peeves in terms of the process of 
fishing, especially the process of purse seining, supposedly a 
more high-technology development in how these ships go out and 
like little purses get all the fish. What comes around as a 
result of that is not so much the tuna that they catch, but it 
is the discarding of miscellaneous or bycatch that I would 
venture to say that we don't even have the slightest notion of 
how much this value of the fish, miscellaneous fish, that is 
being discarded and not even utilized for consumption purposes, 
and the fact that a swordfish or bass or other forms of marine 
life has just as much protein as tuna.
    Do you have any concerns about bycatch and miscellaneous 
catch as part of the negotiations with the island countries? 
Has this issue ever been raised by NOAA as well as by our State 
Department?
    Mr. Smith. Thank you, Mr. Chairman. In fact, bycatch is a 
concern. As I mentioned earlier, the general issue of 
protecting the resources, and part of protecting the resources 
is looking at the impact that the fishing activities have on 
stocks and on fish and on marine mammals that are not the 
target of the fishing.
    One of the things that working both within the SPTT and 
within the WCPFC has allowed us to do is to develop measures 
that both collect information on the impact of fishing on both 
targets and nontarget species and then take measures that are 
designed to address the impact on nontarget species.
    As I mentioned in my testimony, the U.S. under the SPTT has 
100 percent observer coverage on the vessels, on the purse 
seine vessels that are fishing in this fishery, and as a 
result, we have recently good data. I guess I should say that 
this is only as of 2010 that we have had 100 percent coverage. 
But we have good data, and we are getting better data on what 
the incidence of bycatch is.
    Mr. Faleomavaega. When you say ``data,'' what data and 
information have you been able to compile over a series of 
years on the amount of bycatch that has been discarded 
discriminately or indiscriminately by fishing vessels?
    Mr. Smith. Well, with respect to the U.S. purse seine 
fleet, which is where we have the best information, during 2008 
and 2009, discarded bycatch--so these are--this is the product 
that is just thrown away--has been about between 0.4 and 0.9 
percent by weight of the total catch. So by weight it is a 
relatively small percentage of the product caught.
    I will note that our fishers go after yellowtail and 
skipjack tuna. They also catch bigeye as bycatch, but that 
bigeye, for the most part, is utilized. It goes into canneries 
and is retained.
    So by some definitions, the bycatch is higher, but I think 
the concern that you expressed was about discards, and with 
respect to discards, it is the 0.4.
    Mr. Faleomavaega. Can you submit something for the record, 
the data that NOAA has collected in terms of how much bycatch 
has really been taken as a matter of record? Because I can't 
believe it is only 0.4 percent. It has got to be a lot more 
than that.
    Mr. Smith. I would be happy to.
    Mr. Faleomavaega. Please, if you could submit that for the 
record.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
[Note: The remainder of this document is not reprinted here but 
is available in committee records.]
    Mr. Faleomavaega. Mr. Gibbons-Fly.
    Mr. Gibbons-Fly. Yes. Thank you, Mr. Chairman.
    Just to add a couple of points, this issue has been 
discussed within the WCPFC, and the issue of bycatch, in 
particular the juvenile bigeye, has been a source of continuing 
concern. And the WCPFC has adopted at least two measures to get 
to this question. One is the WCPFC now requires all purse seine 
vessels to retain all fish that is caught; no discards unless a 
vessel is absolutely full on its last set and has no more room 
in its hold. But other than that, all fish is to be retained.
    The idea is to--because the juvenile tuna, the smaller 
tuna, has less value, if the vessels are required to take that 
into port where they are going to get less money for it, in 
theory it provides an incentive to avoid those areas where they 
are catching a lot of small fish.
    The second thing that the WCPFC has done is most of the 
catches of juvenile bigeye tuna are caught in association with 
fish-aggregating devices, the floating aggregated devices, the 
FADS. Last year there was a 60-day closure of the FAD fishery, 
and that will expand to a 90-day closure of the FAD fishery, 
particularly to decrease the amount of small bigeye that is 
caught.
    And third, this continues to be an issue. And a number of 
governments and private sector groups are looking at ways to 
mitigate bycatch or catch of juvenile tuna, juvenile bigeye 
tuna, in purse seine fisheries. In particular, a group called 
the International Seafood Sustainability Foundation has 
undertaken a major research project in all the oceans of the 
world to look at ways--chartering vessels to look at what 
technological solutions might be available in terms of fishing 
gear and techniques that would mitigate catch of the bigeye 
tuna. It is my view that the U.S. should be a major contributor 
to that effort, and we are looking for ways to do that in 
cooperation with NOAA.
    So these issues are very much on the radar screen, Mr. 
Chairman. I don't think we are where we want or need to be yet, 
but we are working very hard to try to get there. Thank you.
    Mr. Faleomavaega. I realize that this is not related to 
tuna, but it does have issues as far as conservation is 
concerned as well. Years ago we passed a law on restricting the 
killing of sharks for the purpose of the fishermen just simply 
cutting off the fins and discarding the rest of the body of the 
shark for the only reason because shark fin soup happens to be 
the most expensive soup in Asia. And I remember going to Tokyo. 
A little bowl of shark fin soup like this was $100.
    I wanted to know, Mr. Smith, conservationwise, are we being 
successful in really cutting down the situation dealing with 
shark finning? I suppose it is not part of the tuna fishing 
treaty, right? Nothing to do with sharks? Mr. Gibbons-Fly.
    Mr. Gibbons-Fly. Well, I will let Mr. Smith be the one to 
address this.
    Mr. Faleomavaega. Thank you.
    Mr. Smith. In fact, as you may know, there are several tuna 
treaties or treaties under which we address tuna and other 
highly migratory species. And in each of those, sharks has come 
up as an issue in one way or another, often as bycatch.
    Yes, we continue to aggressively look for ways to reduce 
the mortality of sharks, in particular reduce the mortality of 
sharks that are taken just for purposes of finning. And we do 
it through these organizations, working with our partners. Our 
vessels are subjected to the legislation that you referred to, 
and NOAA actively and the U.S. Coast Guard actively enforce 
those provisions.
    Mr. Faleomavaega. I think we have pretty much covered our 
bases on some of the issues that have been raised in the 
hearing this afternoon. I make this presumption: Assuming that 
I get reelected in November, you will see my ugly face again. 
But otherwise, I do deeply appreciate both of you for your 
involvement in the negotiations on the regional tuna treaty.
    I notice my good friend Dave Whaley is back there on behalf 
of my colleague; and a real dear friend who knows very much 
about fishing industries, that would be Congressman Don Young 
from Alaska. And I am very happy that he is here just to 
observe and hear what we are talking about.
    But, gentlemen, I do want to say that we have got to be in 
a better competitive edge in terms of how we are dealing with 
the tuna industry. Competition coming from foreign countries 
has been very stiff, and I don't know how much longer we are 
going to be able to continue to compete in this industry. And I 
sincerely hope that our tuna boat owners will also be 
forthcoming.
    The problem that I have had over the years, Mr. Gibbons-
Fly, is that our tuna boat owners are so independent of one 
another. It is very difficult to really get a sense of unity of 
organization, really given the issues of what would be in the 
best interests of our tuna industry; no less also to suggest 
that our canneries are not also united in that respect in terms 
of what should be the concerns and how the future of our tuna 
industry should be brought about in a more positive way.
    Before I close, did you have any more additional statements 
you wanted to submit for the record?
    Mr. Gibbons-Fly. No, Mr. Chairman, only to say we wish you 
well on your upcoming election, and we look forward to being 
back here before you to keep you updated on our progress in 
these negotiations and other related issues.
    On your last issue about the U.S. tuna fishermen, I think 
my general assessment over three decades--and I think it 
relates to all fishermen that I have encountered--is that 
individuals become fishermen precisely because they don't want 
other people to tell them what to do, and that presents a 
number of challenges for us in the government. But I have found 
our fishing industry to be--despite the fact that they have 
very varied interests, for me it has always been a pleasure to 
work with them, and it has been an honor to represent them in 
the international arena because I think our fishermen do have 
the best record, and we should be proud of that record and seek 
to see that as the standard that is set for other parts of the 
world.
    Thank you, Mr. Chairman.
    Mr. Faleomavaega. I might also note for the record, before 
Mr. Smith gives his statement, I had about a 5-hour dialogue 
with Mr. Jeff Pike, representing our tuna boat owners, given 
the fact that one of our laws has expired, in terms of the 
requirement of licensing offices to man these fishing boats. My 
understanding is that it is necessary that we give our tuna 
boat owners another 2 years' extension to have this waiver, 
this extension.
    But my concern, as part of the equation, what are they 
doing to help my little tuna industry in American Samoa? And 
that has not been forthcoming. And I sincerely hope that we are 
going to come up with some more positive results in terms of 
this law that gives a waiver for foreign offices to man our 
tuna boats.
    Mr. Smith?
    Mr. Smith. I just wanted to take this opportunity to say 
thank you for the hearing and for giving us the chance to 
testify, and I do hope that we will have this opportunity to 
visit this way again. Your support in this area has been very 
important. It is a difficult area because of the economics and 
because of the needs of the islands and the fish and the tuna 
boats, and I think it is only through this dialogue that we are 
going to be able to come to a solution on how to get all of 
these interests balanced out. But thank you very much.
    Mr. Faleomavaega. Well, gentlemen, with that, I am going to 
use this mallet and say the hearing is adjourned. Thank you 
very much.
    [Whereupon, at 2:50 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


             Material Submitted for the Hearing Record


                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               
                                 <all>

</pre></body></html>
